CREDIT LINE ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
815 Colorado Boulevard
Los Angeles, CA 90041
(800) 231-1626

THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING DISCLOSURE STATEMENTS, CLASSIC VISA,
SECURED CLASSIC VISA, PLATINUM VISA, SECURED PLATINUM VISA, CALIFORNIA PROFESSIONAL FIREFIGHTERS ("CPF") VISA, SECURED CALIFO RNIA
PROFESSIONAL FIREFIGHTERS ("SECURED CPF") VISA, PROFESSIONAL FIREFIGHTERS OF ARIZONA ("PFFAZ") VISA, SECURED PROFESSIONAL FIREFIGHTERS OF
ARIZONA ("SECURED PFFAZ") VISA, WA STATE COUNCIL OF FIREFIGHTERS ("WSCFF") VISA, AND SECURED WA STATE COUNCIL OF FIREFIGHTERS ("SECURED
WSCFF") VISA AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR CLASSIC VISA, SECURED CLASSIC VISA, PLATINUM VISA, SECURED
PLATINUM VISA, CPF VISA, SECURED CPF VISA, PFFAZ VISA, SECURED PFFAZ VISA, WSCFF VISA, AND SECURED WSCFF VISA CREDIT CARDS, AND/OR ANY OTHER
ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR. PHRASES OR
NUMBERS PRECEDED BY A CHECKBOX ( ) ARE APPLICABLE ONLY IF THE CHECKBOX IS MARKED (E.G.
).

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

 _________________________________: _______%

APR For Balance Transfers

 _________________________________: ________%

APR For Cash Advances

 _________________________________: ________%
 _________________________________: ________%
This APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each month
within 25 days of Your statement closing date. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

For VISA, if You are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http:www.consumerfinance.gov/learnmore.

Fees
Penalty Fees
 Returned Payment
 Late Payment

For VISA, up to $22.00
Except VISA, $22.00
For VISA, up to $15.00
Except VISA, $15.00

How We Will Calculate Your Balance: Except VISA, We use a method called "daily balance." For VISA, We use a method called
"average daily balance (including new purchases).” See Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean FIREFIGHTERS FIRST FEDERAL CREDIT UNION dba FIREFIGHTERS FIRST CREDIT UNION
(“FIREFIGHTERS FIRST CREDIT UNION”). The words "You" and "Your" mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the
plural. The words "Card" and "Credit Card" mean any Classic VISA, Secured Classic VISA, Platinum VISA, Secured Platinum VISA, CPF VISA, Secured CPF VISA, PFFAZ
VISA, Secured PFFAZ VISA, WSCFF VISA, or Secured WSCFF VISA Credit Card issued to You by Us and any duplicates or renewals. "Convenience Checks" mean the special
Account access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein constitute
Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic requests, advance
request forms, vouchers, checks, charge slips, Convenience Checks, debit cards, ATM cards, Credit Cards, wire transfers, direct transfers and/or wire transfers to specific
payees identified by You, direct transfers to Your share/share draft or other Credit Union account and the like. Regardless of the means by which any advance is made, You
promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your
Account, including Finance Charges and other fees or charges described herein.
Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

Page 1 of 4

OTBS 016 FRB_Web LAFR (9/19)

FEATURE CATEGORIES. Your Account has Feature Categories which may include Safety Line Line of Credit, Classic VISA, Secured Classic VISA, Platinum VISA, Secured
Platinum VISA, CPF VISA, Secured CPF VISA, PFFAZ VISA, Secured PFFAZ VISA, WSCFF VISA, and Secured WSCFF VISA.

Monthly
Periodic Rate
for Purchases

Annual
Percentage Rate

_________________________

__________%

__________%

Feature Category

Monthly
Periodic Rate
for Balance Transfers

Annual
Percentage Rate
for Balance Transfers

__________%

__________%

Monthly
Periodic Rate
for Cash Advances

Annual
Percentage Rate
for Cash Advances

__________%

__________%

Feature Category

_________________________

Feature Category

Variable Rate
Index

Margin

Daily
Periodic Rate
for Cash Advances

_________________________
Safety Line Line of Credit

________

________

__________%

ADVANCES. Whenever You request a transaction, We may require You to prove Your
identity. Advances made on Your Account will be processed according to the
instructions You give Us (such as by wire transfer, direct transfer to Your Credit Union
account or by other such means) and You authorize Us to do this, or We may draw a
draft or check made payable to You and mail it to You. When the amount advanced
appears on a subsequent statement, that will be conclusive evidence of Your advance
request unless You notify Us that You disagree with any such item appearing on Your
periodic statement according to the provision of this Agreement titled "Your Billing
Rights: Keep this Document for Future Use." You understand that whether or not any
specific secured advance request is approved may be determined by how much equity
You have or will have in the shares, certificates and/or Collateral offered as security.
SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We
may set-off any mutual indebtedness.
You acknowledge that You own any certificates, shares and/or Collateral pledged as
security and that there are no other liens against them other than Ours. You agree to
perform all acts which are necessary to make Our security interest in the certificates,
shares and/or Collateral being pledged enforceable.
For advances under any Feature Category secured by certificates, You agree that all
certificates which are pledged as Collateral must be renewed until Your outstanding
balance is paid in full and such Feature Category is closed. Failure to renew any
certificates securing any advance will cause Your entire outstanding Account balance
to become immediately due and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as
security under this Agreement or for any other loan You may have with Us will secure all
amounts You owe Us now and in the future if that status is reflected in the "Truth-inLending Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. If You have been issued a Credit Card, ATM
card or debit card, You grant and consent to a lien on Your shares with Us
(except for IRA and Keogh accounts) and any dividends due or to become
due to You from Us to the extent You owe on any unpaid Credit Card balance,
and/or Safety Line Line of Credit balance created through the use of Your
ATM card or debit card.

__________%

LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for each
Feature Category for which You are approved. Unless You are in default, any Credit
Limits established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any such
Account access device(s) will be mailed only to the primary Borrower at the address
that We have on file for You. We may refuse to follow any instructions which run
counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need only
pay the Minimum Monthly Payments, You understand that You have the right to repay
at any time without penalty. You also understand that You will only be charged periodic
Finance Charges to the date You repay Your entire balance. You may make larger
payments without penalty. Any partial payment or prepayment will not delay Your next
scheduled payment. All payments to Us must be in lawful money of the United States.
We may apply each payment to whichever Feature Category We wish. For all Feature
Categories (except VISA), payments will be applied first to any Late Charges owing,
then to the Finance Charge due, then to the outstanding principal balance. As
permitted by law, We may apply VISA payments at Our discretion.
Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.
Safety Line Line of Credit Minimum Monthly Payments will be established at the close
of each billing cycle in an amount equal to the lesser of Your balance or that Minimum
Payment amount described in the following table that corresponds to Your unpaid balance,
plus any portion of the Minimum Payments shown on prior statement(s) which remains
unpaid, plus any amount that exceeds Your approved Credit Limit:

ACCOUNT RESTRICTIONS. In order to receive and maintain a Secured Classic VISA,
Secured Platinum VISA, Secured CPF VISA, Secured PFFAZ VISA, or Secured WSCFF
VISA Feature Category, You agree to give Us a specific pledge of shares which will equal
Your Credit Limit. In the event that You default on such Feature Category, We may apply
these shares toward the repayment of any amount owed on that Feature Category. You
may cancel Your Secured Classic VISA, Secured Platinum VISA, Secured CPF VISA,
Secured PFFAZ VISA, or Secured WSCFF VISA Feature Category at any time by paying
any amounts owed on that Feature Category. To be certain that Your entire balance and
all advances are paid, any shares pledged may not be available to You for 30 days after
You have cancelled and any outstanding balance is paid in full.
Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

for Purchases

Page 2 of 4

Unpaid Balance
$0.01 - $1,000.00
$1,000.01 - $2,000.00
$2,000.01 - $3,000.00
$3,000.01 - $5,000.00
$5,000.01 - $6,000.00
$6,000.01 - $7,500.00
$7,500.01 - $9,000.00
$9,000.01 - $10,000.00
$10,000.01 - $12,000.00
$12,000.01 - $14,000.00
$14,000.01 - $16,000.00
$16,000.01 - $18,000.00
$18,000.01 - $20,000.00
$20,000.01 - $22,000.00

Minimum Payment
$25.00
$50.00
$75.00
$125.00
$150.00
$188.00
$225.00
$250.00
$300.00
$350.00
$400.00
$450.00
$500.00
$550.00
OTBS 016 FRB_Web LAFR (9/19)

Unpaid Balance
$22,000.01 - $24,000.00
$24,000.01 - $26,000.00
$26,000.01 - $28,000.00
$28,000.01 - $30,000.00
$30,000.01 - $32,000.00
$32,000.01 - $34,000.00
$34,000.01 - $36,000.00
$36,000.01 - $38,000.00
$38,000.01 - $40,000.00
$40,000.01 - $42,000.00
$42,000.01 - $44,000.00
$44,000.01 - $46,000.00
$46,000.01 - $48,000.00
$48,000.01 - $50,000.00
$50,000.01 & Greater

Minimum Payment
$600.00
$650.00
$700.00
$750.00
$800.00
$850.00
$900.00
$950.00
$1,000.00
$1,050.00
$1,100.00
$1,150.00
$1,200.00
$1,250.00
2.50% of the
unpaid balance

OVERDRAFT PROTECTION. We may transfer funds in the amount necessary (or in
such increments as We may from time to time determine) to Your share draft account by
an advance on Your Safety Line Line of Credit, Classic VISA, Secured Classic VISA,
Platinum VISA, Secured Platinum VISA, CPF VISA, Secured CPF VISA, PFFAZ VISA,
Secured PFFAZ VISA, WSCFF VISA, or Secured WSCFF VISA Feature Category, subject
to this provision, to clear any overdraft on Your share draft account. Whether or not such
transfers occur will be controlled by this Agreement. In any event, You hold Us harmless
for any and all liability which might otherwise arise if the transfer does not occur.
Overdraft protection automatically ceases if this Agreement is ever cancelled or
terminated or Your Account is in default.

VISA Minimum Payments will be an amount equal to 2.50% of Your new unpaid VISA
balance at the end of each billing cycle, subject to the lesser of $25.00 or Your
balance, plus any portion of the Minimum Payments shown on prior statement(s)
which remains unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE (EXCEPT VISA). If Your payment is 15 or more days late, You will
be charged $15.00.
RETURNED PAYMENT FEE (EXCEPT VISA). You will be charged $22.00 for the
returned payment for any check (or other negotiable instrument used for payment)
which is returned unpaid.
FINANCE CHARGES (EXCEPT VISA). A Finance Charge will be assessed on any
unpaid principal balance for each Feature Category of Your Account for the period
such balance is outstanding. Balances change each time advances are made,
payments are made or credits given under any Feature Category. The Finance
Charge begins to accrue on the date of each advance and there is no grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT VISA). The Finance
Charge is determined by multiplying Your unpaid balance at the close of each day in
the billing cycle being accounted for by the applicable Daily Periodic Rate. The unpaid
balance is the balance each day after payments, credits, and unpaid Finance Charges
to that balance have been subtracted and any new advances, insurance premiums or
other charges have been added to Your unpaid balance. These daily Finance Charges
are then added together and the sum is the amount of the Finance Charge owed for
the Feature Category being accounted for. The total Finance Charge You owe on
Your Account for each billing cycle is the sum of all the Finance Charges due for all
applicable Feature Categories.
VISA FINANCE CHARGES. The balances subject to the periodic Finance Charge
are the average daily transactions balances outstanding during the month
(including new transactions). To get the average daily balance, We take the
beginning balance of Your Account each day, add any new purchases, balance
transfers, cash advances, debit adjustments or other charges and subtract any
payments, credits and unpaid Finance Charges. This gives Us the daily balance.
Then, We add up all the daily balances for the billing cycle and divide them by the
number of days in the billing cycle. The Finance Charge for a billing cycle is
computed by multiplying the average daily balance subject to a Finance Charge by
the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Balance transfers and
cash advances are always subject to a Finance Charge from the later of the date they
are posted to Your Account or from the first day of the billing cycle in which the
transaction is posted to Your Account.

OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check,
You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have been
reported lost or stolen; (3) Your Account has been cancelled or has expired. If a
postdated Convenience Check is paid and, as a result, any other Convenience Check is
returned unpaid, We are not responsible for any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us; or
(b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You owe
money on Your Account; or (d) A judgment or tax lien should be filed against You or any
attachment or garnishment should be issued against any of Your property or rights,
specifically including anyone starting an action or proceeding to seize any of Your funds
on deposit with Us; and/or (e) We should, in good faith, believe Your ability to repay Your
indebtedness hereunder is or soon will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and
reasonable attorneys’ fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if We
delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional Disclosure
- Federal Truth-In-Lending Act," which is delivered together with this Agreement or at a later
date becomes an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device; or
by authorizing another to use Your Account, You agree to and accept its terms.

If You are charged interest, the charged will be no less than $1.00.
VARIABLE RATE (EXCEPT VISA). All advances are subject to a Variable Rate
which is based on the highest Prime Rate as published in the Money Rates section
of The Wall Street Journal in effect on the last day of each calendar month ("Index")
plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in
the Index will cause changes in the Interest Rate on the 1st day of the billing cycle
in the month that immediately follows a change in the Index. Increases or decreases
in the Interest Rate will cause like increases or decreases in the Finance Charge
and will affect the number of Your regularly scheduled payments. Your Interest Rate
will never be greater than 18.00% nor less than 8.49% and will apply to Your
remaining principal balance.
Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing all
transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.

UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time to
time, as We deem necessary, make inquiries pertaining to Your employment, credit
standing and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.

Page 3 of 4

OTBS 016 FRB_Web LAFR (9/19)

TERMINATION. Either You or We may cancel Your Account or any particular Feature
Category of Your Account, at any time, whether or not You are in default. You will, in any
case, remain liable to pay any unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of California, except to the extent that such laws are inconsistent with controlling
federal law.
SPECIFIC TERMS APPLICABLE TO YOUR CLASSIC VISA,
SECURED CLASSIC VISA, PLATINUM VISA, SECURED PLATINUM VISA,
CPF VISA, SECURED CPF VISA, PFFAZ VISA, SECURED PFFAZ,
WSCFF VISA, SECURED WSCFF VISA CREDIT CARDS

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at P.O. Box 60890, Los
Angeles, CA 90060. In Your letter, give us the following information:





Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.




Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.

OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon Your
request, a Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed to
anyone. You may use Your PIN to access Your Account and all sums advanced will
be added to Your Account balance. In the event a use of Your PIN constitutes an
Electronic Funds Transfer, the terms and conditions of Your Electronic Fund Transfer
Agreement may also affect Your rights.

1)
2)

While We investigate whether or not there has been an error:

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.



UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (800) 231-1626 or by writing
to Us at P.O. Box 60890, Los Angeles, CA 90060. In any case, Your liability will not
exceed $50.00.



REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the Cards
or Convenience Checks, or electronic terminals to honor the Cards or complete a Card
withdrawal, or for their retention of the Cards or Convenience Checks.



FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the billing
currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of rates
available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate VISA itself receives; or (b) the government
mandated rate in effect for the applicable central processing date.
TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advance, credit or other slips cannot be returned with the statement.

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.





We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:



If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom we reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases

LATE CHARGE. If Your payment is 15 or more days late, You will be charged the
lesser of: (a) $15.00; or (b) the amount of the required minimum payment.
RETURNED PAYMENT FEE. You will be charged the lesser of $22.00 or the required
minimum payment amount for the returned payment for any check (or other negotiable
instrument used for payment) which is returned unpaid.

If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1)

LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at (800) 231-1626 or write to Us
at P.O. Box 60890, Los Angeles, CA 90060.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your Share
Account after six months.

2)

3)

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at P.O. Box 60890, Los Angeles, CA 90060.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

While We investigate, the same rules apply to the disputed amount as discussed above.
After We finish Our investigation, We will tell You Our decision. At that point, if We think
You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016 FRB_Web LAFR (9/19)

PRICING INFORMATION ADDENDUM –
CREDIT LINE ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
815 Colorado Boulevard
Los Angeles, CA 90041
(323) 254-1700
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR CLASSIC VISA, SECURED CLASSIC VISA, PLATINUM VISA, SECURED PLATINUM VISA,
CALIFORNIA PROFESSIONAL FIREFIGHTERS ("CPF") VISA, SECURED CALIFORNIA PROFESSIONAL FIREFIGHTERS ("SECURED CPF") VISA, PROFESSIONAL
FIREFIGHTERS OF ARIZONA ("PFFAZ") VISA, SECURED PROFESSIONAL FIREFIGHTERS OF ARIZONA ("SECURED PFFAZ") VISA, WA STATE COUNCIL OF FIREFIGHTERS
("WSCFF") VISA, AND SECURED WA STATE COUNCIL OF FIREFIGHTERS ("SECURED WSCFF") VISA CREDIT CARD AGREEMENT AND DISCLOSURE. PLEASE BE SURE
TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

Classic VISA: 11.99%
Secured Classic VISA: 11.99%
Platinum VISA: 8.99% - 16.99% based on Your creditworthiness.
Secured Platinum VISA: 8.99% - 16.99% based on Your creditworthiness.
California Professional Firefighters ("CPF") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured California Professional Firefighters ("Secured CPF") VISA: 8.99% - 16.99%
based on Your creditworthiness.
Professional Firefighters Arizona ("PFFAZ") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured Professional Firefighters Arizona ("Secured PFFAZ") VISA: 8.99% - 16.99%
based on Your creditworthiness.
WA State Council of Firefighters ("WSCFF") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured WA State Council of Firefighters ("Secured WSCFF") VISA: 8.99% -

16.99% based on Your creditworthiness.
APR For Balance Transfers

Classic VISA: 11.99%
Secured Classic VISA: 11.99%
Platinum VISA: 8.99% - 16.99% based on Your creditworthiness.
Secured Platinum VISA: 8.99% - 16.99% based on Your creditworthiness.
California Professional Firefighters ("CPF") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured California Professional Firefighters ("Secured CPF") VISA: 8.99% - 16.99% based
on Your creditworthiness.
Professional Firefighters Arizona ("PFFAZ") VISA: 8.99% - 16.99% based on Your
creditworthiness.

Please refer to TOP OF PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

Page 1 of 3

OTBS 016A FRB_Web LAFR (9/19)

Interest Rate and Interest Charges (continued)
APR For Balance Transfers
(continued)

Secured Professional Firefighters Arizona ("Secured PFFAZ") VISA: 8.99% - 16.99% based
on Your creditworthiness.
WA State Council of Firefighters ("WSCFF") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured WA State Council of Firefighters ("Secured WSCFF") VISA: 8.99% - 16.99% based
on Your creditworthiness.

APR For Cash Advances

Classic VISA: 11.99%
Secured Classic VISA: 11.99%
Platinum VISA: 8.99% - 16.99% based on Your creditworthiness.
Secured Platinum VISA: 8.99% - 16.99% based on Your creditworthiness.
California Professional Firefighters ("CPF") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured California Professional Firefighters ("Secured CPF") VISA: 8.99% - 16.99% based
on Your creditworthiness.
Professional Firefighters Arizona ("PFFAZ") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured Professional Firefighters Arizona ("Secured PFFAZ") VISA: 8.99% - 16.99% based
on Your creditworthiness.
WA State Council of Firefighters ("WSCFF") VISA: 8.99% - 16.99% based on Your
creditworthiness.
Secured WA State Council of Firefighters ("Secured WSCFF") VISA: 8.99% - 16.99% based
on Your creditworthiness.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each month
within 25 days of Your statement closing date. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

For VISA, if You are charged interest, the charge will be no less than $1.00.

Fees
Penalty Fees
 Returned Payment
 Late Payment

Up to $22.00
Up to $15.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).”
Please refer to PAGE 1 for more important information about Your Account

The balances subject to the periodic Finance Charge are the average daily transactions balances outstanding during the month (including new transactions). To get the average
daily balance, We take the beginning balance of Your Account each day, add any new purchases, balance transfers, cash advances, debit adjustments or other charges and
subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance. Then, We add up all the daily balances for the billing cycle and divide them by
the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying the average daily balance subject to a Finance Charge by the Monthly
Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise, the
new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Balance transfers and cash advances
are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in which the transaction is posted to
Your Account.
If You are charged interest, the charged will be no less than $1.00.
Your Classic VISA is subject to a Monthly Periodic Rate of 0.9992% (corresponding to an ANNUAL PERCENTAGE RATE of 11.99%).
Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

Page 2 of 3

OTBS 016A FRB_Web LAFR (9/19)

Your Secured Classic VISA is subject to a Monthly Periodic Rate of 0.9992% (corresponding to an ANNUAL PERCENTAGE RATE of 11.99%).
Your Platinum VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on Your
creditworthiness.
Your Secured Platinum VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on
Your creditworthiness.
Your CPF VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on Your
creditworthiness.
Your Secured CPF VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on
Your creditworthiness.
Your PFFAZ VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on Your
creditworthiness.
Your Secured PFFAZ VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on
Your creditworthiness.
Your WSCFF VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on Your
creditworthiness.
Your Secured WSCFF VISA is subject to a Monthly Periodic Rate of 0.7492% - 1.4158% (corresponding to an ANNUAL PERCENTAGE RATE of 8.99% - 16.99%), based on
Your creditworthiness.

Copyright Oak Tree Business Systems, Inc., 2018-2019. All Rights Reserved.

Page 3 of 3

OTBS 016A FRB_Web LAFR (9/19)

